           Agencias Universales S.A.
             Embezzlement Report
For the Period January 1, 2002 to June 30, 2003


          National Science Foundation
          Office of Inspector General


                March 22, 2007
               NSF OIG-07-1-008




                                  PKF Witt Mares
                                  10304 Eaton Place, Suite 440
                                  Fairfax, Virginia 22030
                                  Tel: (703) 385-8809
                                  Fax: (703) 385-8890
           XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                             TABLE OF CONTENTS


                                                                              Page
Executive Summary

      Background ………………………………………………………………………….                                   4

      Objectives, Scope and Methodology ………………………………………………..                     5

      Summary of Findings ……………………….………………………………………                              5

      Exit Conference……………………………………………………………………...                               7



Review Report and Findings

      Independent Accountant’s Review Report ……………………………….…………                   8

      Findings …………………………………….…………………………………….…                                   9



Supplementary Information Attachment

      Attachment A – Response from Agencias Universales S.A. (AGUNSA) ……….…     16
EXECUTIVE SUMMARY
                        Agencias Universales S.A. Embezzlement Report
                        For the Period January 1, 2002 to June 30, 2003


                                  EXECUTIVE SUMMARY
National Science Foundation
Office of the Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


Background

Raytheon Polar Services Company (RPSC) notified the National Science Foundation (NSF) of a
potentially fraudulent act committed by employees of its subcontractor Agencia Universales S.A.
(AGUNSA), which is responsible for performing NSF ship chandlering duties. Ship chandlering
involves the dockside supply of food, fuel, and equipment to the Research Vessel (RV) Gould
and RV Palmer at Punta Arenas, Chile. The AGUNSA subcontract is approximately XXXXXX
annually and is expected to continue through Fiscal Year 2009. Although a Chilean company,
AGUNSA, as a subcontractor on the NSF contract, is required to follow all applicable contract
requirements in the Federal Acquisition Regulations (FAR).

AGUNSA is a Chilean company with annual sales of XXXXXXXX in the maritime port services
sector in Latin America, including a total of 39 offices distributed in 10 countries: Perú, Ecuador,
Colombia, Argentina, Paraguay, Venezuela, U.S.A. (Miami), Jamaica, Mexico and Chile.
AGUNSA is considered to be a large company in Chile, and has begun to play an important role
in the international transport sector, providing such services as cargo handling, bunkering, tug
services, serving as a logistics and stevedoring agent, and airport concessions. Overall, the
Company employs approximately 1,200 people.

In 2003, two AGUNSA employees at the Punta Arenas office were charged and convicted in a
Chilean court of embezzling funds using a vendor invoice lapping scheme through which
payments intended for vendors were diverted. The employees delayed payments intended for
AGUNSA vendors in order to divert the funds for their own private use. The two employees
involved in the embezzlement were XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXX. The embezzlement was uncovered when vendors complained about late or missing
payments.

Historically, the Company has been managed on the basis of trust, and there has been very low
employee turnover. Most employees have been with the Company for many years. In fact, the
two embezzlers had each been with the Company for over 15 years. According to Company
officials, the embezzlement that took place in the Punta Arenas office has been a major source of
embarrassment for AGUNSA.

In August 2004, the two employees were arrested, tried, and jailed. Both were released and are
appealing their convictions. Their preliminary convictions were based on their confessions of
guilt that they now seek to appeal. A new judge was assigned to the case, but a date for hearing
the appeal has not been scheduled as of the date of this report.




                                               -4-
Objectives, Scope, and Methodo1ogy

The objectives of our review were to: 1) determine whether NSF and/or other federal funds were
diverted for personal use by AGUNSA’s employees; 2) if a diversion occurred, identify the
amount of funds and the time period involved; and 3) identify the events that allowed the
embezzlement to occur without immediate detection. We also reviewed AGUNSA’s internal
controls over its vendor payment process to identify weaknesses and recommend corrective
actions to safeguard NSF funds for the remaining term of the subcontract.

We have reviewed the documentation surrounding the embezzlement (vendor invoice lapping
scheme) by the two AGUNSA employees, for the period January 1, 2002 to June 30, 2003. We
conducted our review at the AGUNSA main office located in Valparaiso, Chile and at the Punta
Arenas office, in May 2005.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants and the standards applicable to attestation engagements
contained in Government Auditing Standards (June 2003 revision), issued by the Comptroller
General of the United States. A review is substantially less in scope than an examination, the
objective of which would be to express an opinion on the extent of the embezzlement (lapping
scheme) noted above. Accordingly, we do not express such an opinion. If we had performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

To achieve the audit objectives, we applied selective and random sampling techniques to select
and test AGUNSA’s RPSC invoices. We inspected AGUNSA’s financial management, human
resources, and financial accounting system procedures. We also inspected the internal
management and financial reports, financial audit reports, contract documentation, annual
financial reports, job descriptions, and all other relevant background documentation that was
made available to us, including the AGUNSA-commissioned XXXXXXXX CPA Firm Audit
Report1 and the Chilean Police’s Economic Crime Unit Report.

Summary of Findings

We determined that funds intended for invoice payment had been diverted for personal use by
two AGUNSA employees from the period January 1, 2002 to May 31, 2003. These invoices
were later billed to RPSC and then NSF. AGUNSA had no other U.S. government contracts.
Our review of invoices for that period disclosed that the embezzlement loss to AGUNSA totaled
approximately $157,0002 of which approximately $7,200 related to AGUNSA’s subcontract with
RPSC. The two employees involved in the embezzlement were XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX. We also identified
that up to approximately $616,000 of potentially lapped (delayed) payments to vendors servicing
the RPSC contract could have been part of the embezzlement scheme. AGUNSA, after the
discovery of the embezzlement in May 2003, held itself accountable for the employees’
embezzlement and made payments to all affected parties, including $7,200 to the RPSC vendors.


1
  AGUNSA hired the CPA firm of Guerra Raby to produce a report which outlined the extent of the embezzlement
in terms of outstanding unpaid vendor invoices.
2
  All monetary amounts identified in this report are stated in U.S. dollars unless otherwise indicated.
                                                     - 5-
In general, AGUNSA’s lack of management oversight, lack of internal control over the
accounting and vendor payment process, failure to enforce its own policies and procedures, and
noncompliance with the RPSC subcontract terms enabled the embezzlers to perpetrate the vendor
invoice lapping scheme. Properly designed internal controls that are monitored and enforced
could have prevented or allowed earlier detection of the embezzlement. See the NSF OIG
Report No. OIG-07-1-009 titled Agencies Universales, S.A. Internal Control Report For the
Period January 1, 2005 to May 15, 2005, for further discussion of AGUNSA’s internal controls
and recommendations for corrective actions.

The following is a brief description of our findings surrounding the embezzlement.

1)      AGUNSA Employees Embezzle Approximately $157,000, Including Approximately
        $7,200 of RPSC 3 Funds
        Approximately $157,000 was embezzled by two Punta Arenas XXXXXXXXXXXX, of
        which approximately $7,200 related to two vendors on the RPSC subcontract. Based on
        our discussions with AGUNSA management; review of court documents, accountant
        reports, and NSF materials, along with our review procedures, we concluded that an
        embezzlement (diversion of funds by use of a vendor invoice lapping scheme) was
        perpetrated by two employees in the Punta Arenas office of AGUNSA. The
        embezzlement was discovered in May 2003 after a vendor complained to the Office
        Manager at AGUNSA’s Punta Arenas office that old invoices were unpaid. AGUNSA
        paid the outstanding invoice amounts to the RPSC and other vendors at the time the
        embezzlement was discovered. Properly designed and enforced internal controls could
        have prevented or allowed for earlier detection of the embezzlement.

2)      Lapping Scheme May Have Affected As Much As $616,000 of RPSC4 Funds
        Based on the amount of invoice payments that were delayed during the 17 months prior
        to discovery of the embezzlement; May 2003, we estimate that as much as $616,000 of
        RPSC related funds may have been lapped or diverted, including the $7,200 actually
        embezzled and discovered at the end of the embezzlement period. These funds should
        have been used to make timely (within 30 days of recording the receipt of the invoice)
        payment of vendor invoices associated with the RPSC subcontract, as required by the
        FAR and the RPSC subcontract terms and conditions.


3)      Lack of Internal Controls, Lack of Management Oversight, Lack of Enforcement of
        Corporate Policies, and Collusion Allowed the Embezzlement to Occur Without Being
        Readily Detected.

        The vendor invoice lapping scheme perpetrated in the Punta Arenas office went
        undetected principally due to a lack of segregation of accounting duties, XXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX and AGUNSA’s lack of
        management oversight, failure to enforce its own policies and procedures in the vendor
        payment process, and noncompliance with the RPSC subcontract terms. In collusion

3
  Tracing funds to RPSC-related vendors was used to determine the amount of NSF or RPSC funds that were
diverted.
4
  The term “RPSC-related funds” is used to designate those funds which were to have been paid to AGUNSA
vendors under the RPSC subcontract.
                                                     - 6-
       with the XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XxxxxxxXXxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxXXXXXXXXXXxXXXxX
       xxxxxxxx also did not provide proper oversight in his role as the xxxxxxxxxxxxx in that
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx documentation supported
       each payment, accounting records were updated properly, or invoices were paid promptly
       in accordance with AGUNSA policies and procedures.

       Specifically, the poor internal controls that allowed the embezzlement to occur included:
       1) xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       2) the poor oversight of the xxxxxxxxxxxxxx over the xxxxxxxxxxxxxxx and xxxxxxx
          xxxxxxxxx
       3) the failure to enforce the company policies that require that checks be restricted for
          deposit only;
       4) the failure of the Punta Arenas Office to comply with company policy which requires
          the reconciliation of invoices, checks and accounting records; and,
       5) the lack of timely payment of invoices. These weaknesses, coupled with collusion,
          allowed the two employees to embezzle funds, delay vendor payments, and
          manipulate accounting records.

To accompany this report that describes AGUNSA’s embezzlement, we have also prepared an
internal control report that provides recommendations to improve the weaknesses in internal
controls that allowed the embezzlement to occur. In addition, we identify the internal controls in
AGUNSA’s vendor payment process that were put in place after the discovery of the
embezzlement and after the vendor payment procedures were revised. That report identifies the
weaknesses in internal controls that still exist, the controls that were subsequently in place but
not adequately designed, and the controls that were adequately designed but not followed or
enforced. See the NSF OIG Report No. OIG-07-1-009 titled Agencias Universales S.A. Internal
Control Report For the Period January 1, 2005 to May 15, 2005.

For a complete discussion of the audit findings, refer to the Independent Accountant's Review
Report on Agencias Universales SA Embezzlement.

Exit Conference


We attended an onsite exit conference with AGUNSA in December 2005. xxxxxxxxxxxxxxx
(PKF Witt Mares) met with xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx to present in detail, and obtain
comment on, our preliminary findings. We were informed that they agreed with some of the
findings and had various levels of disagreement with certain other findings and would like the
opportunity to respond in writing.

We presented AGUNSA with a draft report on March 2nd, 2007 to which they responded in
writing on March 15th, 2007. AGUNSA’s response dated March 15th, 2007, indicated that, in
general, they agreed with the findings in this report. AGUNSA's response has been included in
its entirety in Attachment A.



                                               - 7-
INDEPENDENT ACCOUNTANT’S REVIEW REPORT ON
         AGENCIAS UNIVERSALES S.A.
              EMBEZZLEMENT
                  INDEPENDENT ACCOUNTANT’S REVIEW REPORT

 National Science Foundation
 Office of the Inspector General
 4201 Wilson Boulevard
 Arlington, Virginia 22230

 To the National Science Foundation
 Office of the Inspector General

 We have reviewed the documentation surrounding the embezzlement (lapping scheme) by two
 Agencias Universales S.A. (AGUNSA) employees for the period January 1, 2002 to June 30,
 2003. AGUNSA is a Chilean subcontractor to Raytheon Polar Services Corporation (RPSC), a
 National Science Foundation (NSF) contractor. We performed our review in May, 2005.
 AGUNSA’s management did not provide us with a written assertion about the extent of the
 lapping scheme for the periods described above.

 Our review was conducted in accordance with attestation standards established by the American
 Institute of Certified Public Accountants and the standards applicable to attestation engagements
 contained in Government Auditing Standards (June 2003 revision), issued by the Comptroller
 General of the United States. A review is substantially less in scope than an examination, the
 objective of which would be the expression of an opinion on extent of the embezzlement
 (lapping scheme) noted above. Accordingly, we do not express such an opinion.

 Based on our review, nothing came to our attention to indicate that additional funds, above the
 $7,200 noted in our report relating to the RPSC subcontract, were embezzled as of the time of
 discovery of the embezzlement in May 2003. However, we estimate that as much as $616,000 in
 payments for RPSC-related invoices could have been involved in the lapping scheme, based on
 the time period (delay) in payment of invoices to vendors. We performed testing to ascertain if
 any RPSC subcontract terms were violated as a result of the embezzlement. We concluded that
 subcontract terms had been violated. The Findings are attached and are an integral part of this
 report.

 This report is intended solely for the information and use of the Office of Inspector General of
 the National Science Foundation and is not intended to be and should not be used by anyone
 other than the specified party.




 PKF Witt Mares, PLC
 Fairfax, Virginia.
 May 27, 2005




                                                            -8-
10304 EATON PLACE, SUITE 400, FAIRFAX, VA 22030   PHONE (703) 385-8809   FAX (703) 385-8890   WEB WWW.PKFWITTMARES.COM
                        Agencias Universales S.A. Embezzlement Report
                        For the Period January 1, 2002 to June 30, 2003
                                             FINDINGS
Finding No. 1: AGUNSA Employees Embezzle Approximately $157,000, Including
Approximately $7,200 of RPSC Funds.

During May of 2003, AGUNSA discovered approximately $157,000 was embezzled
through a vendor invoice lapping scheme committed by two Punta Arenas xxxxxxxxxxx
xxxxxxxxx of which approximately $7,200 related to two vendors on the RPSC
subcontract. A vendor invoice lapping scheme is an embezzlement of funds where
payments intended for a vendor are diverted by individuals for their personal use or to
cover the costs of previously delayed or diverted payments to prevent detection of the
embezzled funds. The scheme may continue to go undetected because accounting records
are altered by the embezzler to reflect that invoices are paid, when in fact the funds are
embezzled. They are eventually paid with funds that are intended to pay for subsequent
invoices or vendors.

Specifically, the embezzlement lapping scheme was perpetrated by the Punta Arenas xxxxx
xxxxxxxx and the xxxxxxxxxxxxxxxxxxxxxxxxxxxx. These employees used AGUNSA
company checks to fund the fraudulent vendor invoice lapping scheme. Although
AGUNSA company policy requires that checks are restrictively marked on the face of the
instrument to designate that the payment should be deposited in the vendor’s bank account,
the embezzlers conspired to write the checks to themselves or to vendors and then divert
the funds for their own personal use or to make payments to the vendors whose original
payments had been diverted.

The Punta Arenas xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Accordingly,
the lack of effective oversight by the xxxxxxxxxxxxxx combined with the collusion of the
two xxxxxxxxxxxxxxxxxxxx significantly extended the amount of time the lapping scheme
operated and was undetected.

In October 2002, during the period of the embezzlement, AGUNSA changed its method of
paying certain vendors by switching to "vale vistas"5 instead of using individual checks.
This process required the local Punta Arenas office to submit a list of the vendors to be paid
by the AGUNSA central office in Valparaiso, accompanied with detailed information of
which invoices were being paid. The Company's central office would then issue one check
to the local Punta Arenas bank covering the amount of all the invoices, and the local
AGUNSA office would submit to the local bank the list of specific vendors to be paid.

This process allowed the xxxxxxxxxxxxxx and the xxxxxxxxxxxxxxxxxxxxxxxxxxxx to
continue to alter the original vendor list (originally sent to the central office) and take an
altered list to the local bank. This altered list allowed them to continue to perpetrate the
embezzlement scheme, although the corporate records showed the payments had been made
to the list of original vendors. In 2003, after the discovery of the embezzlement, AGUNSA
properly made changes in the Company’s invoice payment policy and procedures to require

5
 Vale Vista is a process by which a company check is issued (or funds transferred) to a bank from which
multiple vendors are paid.


                                                   - 9-
                     Agencias Universales S.A. Embezzlement Report
                     For the Period January 1, 2002 to June 30, 2003
that most large vendors now be paid directly from the central office in Valparaiso by
electronic payment transfers, thus avoiding potential modification of the list of invoices to
be paid at the local office level. However, some payments are still made by check and cash
at the Punta Arenas office but these payments are treated as exceptions and must be
approved by the finance department at Valparaiso. In addition to failing to follow Company
policy for cash disbursements, the office in Punta Arenas also failed to comply with a
Company policy that required all cash flow activity to be reconciled and posted daily. In
Punta Arenas, this policy was not enforced, and there were times when transactions were
left “pending” or “not transmitted” until the month-end closing. This, too, was a factor in
not detecting the embezzlement.

The embezzlement was discovered in May 2003 after a vendor complained to the Office
Manager at AGUNSA’s Punta Arenas office that old invoices were unpaid. Approximately
$157,000 had been diverted for personal use by the two employees from payments intended
for five vendors. In particular, 18 invoices valued at approximately $7,200 specifically
related to goods and services on the RPSC contract that were provided by two of the five
affected vendors. These two RPSC vendors experienced delayed payments of between 49
to 105 days, with an average delay of 83 days; most delays were 86 days beyond the “net
32 days” allowed by AGUNSA’s policy.

As soon as the embezzlement was discovered in May 2003, payments were made by
AGUNSA to all vendors with outstanding invoices. Accordingly, RPSC and NSF incurred
no economic loss as a result of the embezzlement except for costs related to determining
the extent and nature of the embezzlement. Similarly, other than the opportunity to earn
interest on unpaid invoices, AGUNSA vendors also suffered no economic loss.




                                            - 10-
                    Agencias Universales S.A. Embezzlement Report
                    For the Period January 1, 2002 to June 30, 2003
Finding No. 2: Lapping Scheme May Have Affected As Much As $616,000 of RPSC
funds.

We estimate that as much as $616,000 of RPSC-related funds may have been lapped or
diverted based on the amount of invoice payments that were delayed during the 17 months
prior to discovery of the embezzlement in May 2003. We estimated this amount based on
the actual invoices for goods and services provided under the RPSC contract that were paid
more than 61 days late. AGUNSA’s policy is to pay vendors in 30 days of recording the
invoice on its books and, in Punta Arenas, the industry standard for vendor payments is 60
days. Therefore, allowing for the industry standard, there was a high likelihood that the
invoices paid beyond 61 days (i.e. past the industry standard and AGUNSA’s policy), were
part of the lapping scheme and not just mistakenly paid late by AGUNSA. Also, because
the embezzlers used current vendor payments to pay for the older lapped invoices and were
likely increasing the amount of their embezzlement over time, the vendor payment period
and the volume of invoices required to cover the lapping scheme increased. As more funds
and time to pay the invoices were required, extra vendor credit (in days) and more vendor
payments (in currency) were needed.

For the period from January 1, 2002 to June 30, 2003, there were approximately 1700
invoices totaling xxxxxxxxxx associated with the RPSC subcontract. Using invoices as the
sampling unit, 15 invoices out of a sample of 69 (approximately 22%) were paid beyond
the invoice net 30 terms by an additional 31 days and an additional 45 days in 2002 and
2003, respectively. We used 61 days and 75 days in 2002 and 2003, respectively, because
the length of the time increased over the course of the lapping scheme. These 15 invoices
had a U.S. dollar value of xxxxxxxxxxxx (approximately 26%) of the total sample value of
$45,864. A consistent level of exception (throughout the population from which our
sample was drawn) translates to approximately 370 invoices, with an approximate dollar
value of xxxxxxxxx. These are invoices that we estimate to have been paid after 61 days in
2002 and after 75 days in 2003; and as such, were likely to have been involved in the
lapping scheme.




                                          - 11-
                     Agencias Universales S.A. Embezzlement Report
                     For the Period January 1, 2002 to June 30, 2003
Finding No. 3: Lack of Internal Controls, Lack of Management Oversight, Lack of
Enforcement of Corporate Policies, and Collusion Allowed the Embezzlement to Occur
Without Being Readily Detected.

The vendor invoice lapping scheme perpetrated in the Punta Arenas office went undetected
principally due to a xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxx AGUNSA’s lack of management oversight, failure to enforce its own
policies and procedures in the vendor payment process, and noncompliance with the RPSC
subcontract terms. In collusion with the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx and did not assure proper oversight of recording and payment of
invoices. The xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
documentation supported each payment, accounting records were updated properly, or
invoices were paid promptly in accordance with AGUNSA policies and procedures.

Specifically, the poor internal controls that allowed the embezzlement to occur included 1)
a lack of segregation of accounting and payment duties of the Office Cashier; 2) the poor
oversight of the xxxxxxxxxxxxxx over the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 3) the
failure to enforce the company policies that require that checks be restricted for deposit; 4)
the failure of the Punta Arenas Office to comply with company policy which requires the
reconciliation of invoices, checks and accounting records; and 5) lack of timely payment of
invoices. These weaknesses, coupled with collusion, allowed the two employees to
embezzle funds, delay vendor payments, and xxxxxxxxxxxxxxxxxxxxxx.

Listed below is a detailed description of the weaknesses in internal controls over the vendor
payment process that allowed the embezzlement to occur without being readily detected.


1. Lack of the segregation of xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx:

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


2. Poor oversight of the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx:

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                            - 12-
                         Agencias Universales S.A. Embezzlement Report
                         For the Period January 1, 2002 to June 30, 2003
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxx

By restrictively marking the face of the check, the writer of the check signifies the type of
check being issued. At AGUNSA, the embezzlers, through some minor modifications to
the checks were able to write the checks to themselves or in the name of the vendor but, in
either event, were able to cash them or deposit them into their own bank accounts. As a
result, the xxxxxxxxxxxx did not detect that these easily transferable checks were prepared
incorrectly (without restricting who could receive the funds)6 before xxxxxxxxxxxxxxxxxx
should have detected that the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxx. These oversight failures significantly extended the amount of time
the lapping scheme went undetected and ultimately resulted in an approximate $157,000
loss to AGUNSA. The embezzlement was only detected because a vendor complained to
the Punta Arenas xxxxxxxxxxxxxxx of delayed payments.


3. Failure to enforce the company policies that require that checks be restricted for deposit
only:

Company policy requires that checks be restricted for “deposit only” unless they were
paying for local government services, for example, dockside services, which required the
use of an “open” check. Open checks are checks written in a manner where they are
negotiable instruments that can be cashed by the bearer. The xxxxxxxxxxxxxx failed to
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
could be cashed at the bank by anyone and without any type of endorsement. The xxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
and to vendors and because they were not restricted for deposit only, had the opportunity to
deposit them in xxx bank account.

As stated in Finding 1, in October 2002, during the period of the embezzlement, AGUNSA
changed its method of paying certain vendors by switching to "vale vistas" instead of using
individual checks. This process required the local Punta Arenas office to submit a list of
the vendors to be paid by the AGUNSA central office in Valparaiso, accompanied with
detailed information of which invoices were being paid. The Company's central office
would then issue one check to the local Punta Arenas bank covering the amount of all the
invoices, and the local AGUNSA office would submit to the local bank the list of specific
vendors to be paid.

This process allowed the xxxxxxxxxxxxx and the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
continue to alter the original vendor list (originally sent to the central office) and take an
altered list to the local bank. This altered list allowed them to continue to perpetrate the

6
  Restrictively marking the front of the check would have prevented the checks from being used as “bearer”
instruments.


                                                   - 13-
                     Agencias Universales S.A. Embezzlement Report
                     For the Period January 1, 2002 to June 30, 2003
embezzlement scheme, although the corporate records showed the payments had been made
to the list of original vendors.

In 2003, after the discovery of the embezzlement, AGUNSA properly made changes in the
Company’s invoice payment policy and procedures to require that most large vendors now
be paid directly from the central office in Valparaiso by electronic payment transfers, thus
avoiding potential modification of the list of invoices to be paid at the local office level.
However, some payments are still made by check and cash at the Punta Arenas office but
these payments are treated as exceptions and must be approved by the finance department
at Valparaiso.


4. Failure of the Punta Arenas Office to comply with company policy which requires the
   reconciliation of invoices, checks and accounting records.

The office in Punta Arenas also failed to comply with a Company policy that required all
cash flow activity, including checks, invoices paid, and accounting records, to be reconciled
and posted daily. In Punta Arenas, this policy was not enforced, and there were times when
transactions were left “pending” or “not transmitted” until the month-end closing. This,
too, was a factor in not detecting the embezzlement. A vendor check would be written on a
certain date. The vendor would be notified of which invoices were being paid and would
cash the check, but the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx. During the embezzlement period, as far as the central office was
concerned, all vendor accounts were current and in compliance with the Company’s 30-day
payment policy.


5. Lack of Timely Payment of Invoices:

AGUNSA did not follow or enforce the RPSC subcontract terms or Federal Acquisition
Regulation (FAR) requirements requiring payment to vendors within terms stipulated on
the invoice (usually 30 days). This elongated the time in which the embezzlers could divert
the funds and perpetrate the embezzlement. Specifically, the RPSC subcontract
incorporates by reference the FAR that requires, for an AGUNSA invoice submission to
RPSC to be eligible, AGUNSA vendors must be paid within terms stipulated on the invoice
(usually 30 days). In addition, AGUNSA’s policy requires that vendor invoices be paid
within 32 days (2 days for entry into AGUNSA’s accounts payable system and 30 day
payment policy); however, that policy fails to meet the 30-day vendor invoice payment
requirement of the RPSC subcontract.

AGUNSA officials state that the standard practice for payment of vendor invoices in Punta
Arenas is 60 days or more. The embezzlers in the Punta Arenas office delayed vendor
payments beyond the 30 day AGUNSA policy by a further 83 days (average) or more as
part of their embezzlement scheme. If AGUNSA management had enforced its own policy
for vendor invoice payment within 32 days, the embezzlers’ ability to successfully execute
their embezzlement scheme would have been limited.



                                            - 14-
                     Agencias Universales S.A. Embezzlement Report
                     For the Period January 1, 2002 to June 30, 2003
Although, the RPSC subcontract with AGUNSA incorporates by reference RPSC TC-002
Raytheon Company Standard Terms and Conditions, FAR Provisions, AGUNSA
management was not aware that the subcontract, incorporates certain provisions from the
FAR by reference, and that AGUNSA therefore has to comply with the FAR as part of the
subcontract. Therefore, the AGUNSA internal control system was not adequate to ensure
compliance with the terms and conditions of the subcontract with RPSC and the applicable
FAR. This directly impacted AGUNSA’s ability to make timely payments to vendors in
compliance with NSF and Federal requirements and inhibit the embezzlement scheme.


6. Collusion of the two employees (xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx) to embezzle vendor payments:

The Office Cashier was in collusion with the Punta Arenas xxxxxxxxxxxxxxxxxxx
xxxxxxxxxx, who was in charge of signing checks along with the xxxxxxxxxxxx. The
Administrative and Finance Manager purposely signed the checks and did not assure proper
oversight of recording and payment of invoices, especially in the use of open checks, which
could be cashed by anyone and without any type of endorsement. These activities coupled
with the violations of company policy and the lack of enforcement and oversight by the
Office Manager, caused the embezzlement to go undetected. The collusion also resulted in
false payment information being recorded in the AGUNSA central accounting system.

In conclusion, all of these conditions enabled the embezzlers to perpetrate the vendor
invoice lapping scheme without readily being detected. Properly designed internal controls
that are monitored and enforced could have prevented or facilitated earlier detection of the
embezzlement.




To accompany this report that describes AGUNSA’s embezzlement, we have also prepared
an internal control report that provides recommendations to improve the weaknesses in
internal controls that allowed the embezzlement to occur. In addition, we identify the
internal controls in AGUNSA’s vendor payment process that were put in place after the
discovery of the embezzlement and after the vendor payment procedures were revised.
That report identifies the weaknesses in internal controls that still exist, the controls that
were subsequently in place but not adequately designed, and the controls that were
adequately designed but not followed or enforced. See the NSF OIG Report No. OIG-07-1-
009 titled Agencias Universales S.A. Internal Control Report For the Period January 1,
2005 to May 15, 2005.



                                            - 15-
SUPPLEMENTARY INFORMATION
       ATTACHMENT
                      Agencias Universales S.A. Embezzlement Report
                      For the Period January 1, 2002 to June 30, 2003
                      ATTACHMENT A
      RESPONSE FROM AGENCIAS UNIVERSALES S.A. (AGUNSA)
From: xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Sent: Thursday, March 15, 2007 6:30 PM
To: xxxxxxxxxxxxxxxxxxxxx
Cc: dcureton@nsf.gov; xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Subject: RE: Internal control and Embezzlement report

John

Please find enclosed our comments about yours reports

Regards
xxxxxxxxxxxxxxxxxx

PKF Witt Mares, PLC
FAIRFAX, Virginia
Att: Mr.xxxxxxxxxxxxxxxx, ACA, CGFM, CPA, CFE
xxxxxxxxxxxxxxxx

On Monday March 5, 2007, we received by email two reports prepared by PKF UIT Mares
for NSF: Internal Control Report and Embezzlement Report. Both reports respectively
cover the fraud happened in our signature in Punta Arenas during the period of 2002 and
first six months of 2003, just like the state of our internal controls to the date of the
investigation made by PKF Witt Mares between March and May 2005. PKF Witt Mares
has giving us until March 16th, 2007 to make commentaries about both reports, if we want
those commentaries added to the reports.

Do to the short time given to answer, the long period passed between the fraud and the
investigation, and the fact that in our opinion the most relevant observations made in the
reports had already surpassed, we now proceed to make a General Statement about the case
covered by the reports:

 1.    Agunsa is committed on providing outstanding quality services to NSF throughout its
       contract with Raytheon. That is how is been done uninterruptedly from the beginning
       of the contract in the year XXXX until today. Throughout the period of the contract,
       it had done the necessary adjustments to the operative and administrative procedures
       with the intention of giving a better service, always-previous agreement with
       Raytheon.

 2.    Agunsa is proud of promoting transparency as one of its fundamental values. From
       the moment the fraud was discovered by us, we immediately informed Raytheon
       about the facts, taking the necessary measures: to restitute the funds to all the
       defrauded parts, to dismiss and to process the people responsible for the fraud, and to
       correct the possible operative and administrative faults. To this date we can confirm
       that :




                                            - 16 -
                    Agencias Universales S.A. Embezzlement Report
                    For the Period January 1, 2002 to June 30, 2003
      -   Just as it is indicate in the report, Independent accountants review report in the
          actual revision indeed of the amounts only involved $7.200 were related to the
          RPSC and they were not affected
      -   Additionally this is effective it was never incurred in a lost one economic
          neither NSF stops neither RPSC stops
      -   All the defrauded parts indeed were restituting from the funds owed
          respectively.
      -   The responsible employees were fired and Agunsa filed a legal complain against
          them. These employees have done provisional jail time, failed against them
          recently, being in an appeal process. Our lawyers keep working in the case until
          they obtain the maximum possible pains for the responsible.
      -   Since the discovery of the fraud, we have implemented numerous measures to
          fortify our internal controls and to try to prevent that an incident of this type
          happens in our firm again.

      The main measures taken include:
      i. Complete reorganization of the Punta Arenas Agency. Flowchart attached. The
           different activities properly separate operative and administrative functions.
      ii. Greater supervision and pursuit on behalf of the central office by the internal
           audit unit, finances department and accounting department. This includes the
           centralized control of payments, revision of the registration of the invoices and
           their cost and their payment.
      iii. Clear definition of procedures and employee duties.

3.   Although we did not share some precise conclusions of the reports, in general we
     agree with them.

     We agree in the way you describe how of the fraud was made, describing in detail
     how it was operated to commit the fraud and the amount of it (embezzlement report).

     In the other report (internal control report), a series of weaknesses of internal controls
     are indicated, so are their respective recommendations for the improvement of them.
     We appreciate those recommendations, most of which have already been
     implemented.

     However, we cannot accept the points 3 and 9 indicated in the internal controls
     report.

     The points 3 indicate that the xxxxxxx did not make the supervision of the changes in
     the systems and procedures. That is not correct; the instruction was given and
     completed immediately, that why it was not needed another action by the board.

     The point 9 neither are acceptable since Agunsa as Agent has a primordial duty we
     should be diligent, look after the interests of all our represented. AGUNSA has never
     charged a non-received service, the point it should not been put in the report and it is
     not acceptable.


                                           - 17 -
                    Agencias Universales S.A. Embezzlement Report
                    For the Period January 1, 2002 to June 30, 2003

 4.   To finish, we want to declare that this fraud was a very isolated event, unique in the
      history of our company. Collusion of two key employees and with many years
      working for Agunsa was one of the main causes by which we didn’t identify the
      problem previously, managing to elude the internal controls of the company. This
      case improves our internal control, and allows us to improve our procedures.

We hope that this incident had clarified, and reiterate to NSF our commitment with the
quality and the transparency, and we are open to continue collaborating with the intention
of providing the best possible service.

Our best regards,
xxxxxxxxxxxxxxx, AGUNSA




                                           - 18 -
                      Agencias Universales S.A. Embezzlement Report
                      For the Period January 1, 2002 to June 30, 2003




               General organization for Raytheon Contract
                                  MANAGING DIRECTOR

                                      xxxxxxxxxxxxx
                                                                        ADMINISTRATION
                                                                        VICE PRESIDENT
    ASSISTANT                                                             xxxxxxxxxxxxx
                                    VICE PRESIDENT
    xxxxxxxxxxxxx                       AGENCY
                                  AND PORT LOGISTICS
                                        DIVISION
                                      xxxxxxxxxxxxx
     RAYTHEON
   COORDINATOR
    xxxxxxxxxxxxx
                                    PUNTA ARENAS
                                   BRANCH MANAGER

                                      xxxxxxxxxxxxx




ADMINISTRATION HEAD                                                      WAREHOUSE
    xxxxxxxxxxxxx                OPERATIONS MANAGER                       MANAGER
                                     xxxxxxxxxxxxx                       xxxxxxxxxxxxx


  ADMINISTRATION                                                        ADMINISTRATIVE
 INVOICE REGISTRY                  STEVEDORING AND                       xxxxxxxxxxxxx
    xxxxxxxxxxxxx                   TRANSSHIPPING
                                      xxxxxxxxxxxxx
                                                                        ADMINISTRATIVE
                                                                         xxxxxxxxxxxxx
  ADMINISTRATION
      CASHIER                      HUSBANDING AND
    xxxxxxxxxxxxx                  PORT OPERATIONS                      ADMINISTRATIVE
                                     xxxxxxxxxxxxx                       xxxxxxxxxxxxx


                                                                        ADMINISTRATIVE
                                   HUSBANDING AND                        xxxxxxxxxxxxx
                                   PORT OPERATIONS
                                     xxxxxxxxxxxxx
                                                                         WAREHOUSE
                                                                           WORKER
                                                                         xxxxxxxxxxxxx




                                          - 19 -
Agencias Universales S.A. Embezzlement Report
For the Period January 1, 2002 to June 30, 2003




                    - 20 -
Agencias Universales S.A. Embezzlement Report
For the Period January 1, 2002 to June 30, 2003




                    - 21 -
Agencias Universales S.A. Embezzlement Report
For the Period January 1, 2002 to June 30, 2003




                    - 22 -
